<html>
<title> - DIPLOMATIC SECURITY AND ITS IMPLICATIONS FOR U.S. DIPLOMACY</title>
<body><pre>[Senate Hearing 112-123]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 112-123
 
      DIPLOMATIC SECURITY AND ITS IMPLICATIONS FOR U.S. DIPLOMACY

=======================================================================

                                HEARING

                               before the

                  OVERSIGHT OF GOVERNMENT MANAGEMENT,
                     THE FEDERAL WORKFORCE, AND THE
                   DISTRICT OF COLUMBIA SUBCOMMITTEE

                                 of the

                              COMMITTEE ON
                         HOMELAND SECURITY AND
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 29, 2011

                               __________

         Available via the World Wide Web: http://www.fdsys.gov

       Printed for the use of the Committee on Homeland Security
                        and Governmental Affairs



                  U.S. GOVERNMENT PRINTING OFFICE
68-013                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="f493849bb4978187809c919884da979b99da">[email&#160;protected]</a>  

        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 SUSAN M. COLLINS, Maine
DANIEL K. AKAKA, Hawaii              TOM COBURN, Oklahoma
THOMAS R. CARPER, Delaware           SCOTT P. BROWN, Massachusetts
MARK L. PRYOR, Arkansas              JOHN McCAIN, Arizona
MARY L. LANDRIEU, Louisiana          RON JOHNSON, Wisconsin
CLAIRE McCASKILL, Missouri           ROB PORTMAN, Ohio
JON TESTER, Montana                  RAND PAUL, Kentucky
MARK BEGICH, Alaska                  JERRY MORAN, Kansas

                  Michael L. Alexander, Staff Director
               Nicholas A. Rossi, Minority Staff Director
                  Trina Driessnack Tyrer, Chief Clerk
            Joyce Ward, Publications Clerk and GPO Detailee


  OVERSIGHT OF GOVERNMENT MANAGEMENT, THE FEDERAL WORKFORCE, AND THE 
                   DISTRICT OF COLUMBIA SUBCOMMITTEE

                   DANIEL K. AKAKA, Hawaii, Chairman
CARL LEVIN, Michigan                 RON JOHNSON, Wisconsin
MARY L. LANDRIEU, Louisiana          TOM COBURN, Oklahoma
MARK BEGICH, Alaska                  JERRY MORAN, Kansas

                Lisa M. Powell, Staff Director, Majority
        Jessica K. Nagasako, Professional Staff Member, Majority
               Ray Ciarcia, Legislative Fellow, Majority
                Rachel Weaver, Staff Director, Minority
           Sean Kennedy, Professional Staff Member, Minority
                      Aaron H. Woolf, Chief Clerk


                            C O N T E N T S

                                 ------                                
Opening statement:
                                                                   Page
    Senator Akaka................................................     1

                               WITNESSES
                         Tuesday, June 21, 2011

Hon. Eric J. Boswell, Assistant Secretary for Diplomatic 
  Security, U.S. Department of State.............................     3
Jess T. Ford, Director, International Affairs and Trade, U.S. 
  Government Accountability Office...............................     5
Susan R. Johnson, President, American Foreign Service Association    20

                     Alphabetical List of Witnesses

Hon. Boswell, Eric J.:
    Testimony....................................................     3
    Prepared statement...........................................    27
Ford, Jess T.:
    Testimony....................................................     5
    Prepared statement...........................................    37
Johnson, Susan R.:
    Testimony....................................................    20
    Prepared statement...........................................    48

                                APPENDIX

Background.......................................................    52
Questions and responses submitted for the record from:
    Mr. Boswell..................................................    60


      DIPLOMATIC SECURITY AND ITS IMPLICATIONS FOR U.S. DIPLOMACY

                              ----------                              


                        WEDNESDAY, JUNE 29, 2011

                                 U.S. Senate,      
              Subcommittee on Oversight of Government      
                     Management, the Federal Workforce,    
                            and the District of Columbia,  
                      of the Committee on Homeland Security
                                        and Governmental Affairs,  
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:30 p.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Daniel K. 
Akaka, Chairman of the Subcommittee, presiding.
    Present: Senator Akaka.

               OPENING STATEMENT OF SENATOR AKAKA

    Senator Akaka. I call this hearing of the Subcommittee on 
Oversight of Government Management, the Federal Workforce, and 
the District of Columbia to order. I want to say aloha and 
welcome to our witnesses. Thank you so much for being here 
today.
    This Subcommittee held a hearing in 2009 to examine 
staffing and management challenges at the State Department's 
Diplomatic Security Bureau (DS) which protects State Department 
employees and property worldwide. Today's hearing will build on 
the previous hearing, as well as examine the results of a 
Government Accountability Office (GAO) review of diplomatic 
security training challenges.
    Since the 1998 bombings of U.S. embassies in East Africa, 
the Bureau's mission has expanded dramatically to meet the 
State Department's evolving security needs. With our military 
planning to withdraw its remaining 50,000 troops from Iraq by 
the year's end, diplomatic security will face an unprecedented 
challenge.
    The Bureau will be responsible for many security and 
protective functions now performed by the military such as 
clearing improvised explosive devices and defending a U.S. post 
against rocket and mortar attacks.
    In addition, the Bureau is expected to implement a State 
Department recommendation to provide high threat awareness 
training to all employees in both high and critical threat 
posts. This would require the Bureau to train 10,000 employees 
per year, five times the number for 2010. The Bureau's 
responsibilities will continue to expand with the planned troop 
reductions in Afghanistan.
    As we deploy more civilian Federal employees to support 
democratic reform and self-governance in Iraq, Afghanistan, and 
other high threat areas, it is very critical that Diplomatic 
Security have the training, resources, and support needed to 
protect them.
    The Government Accountability Office report released today 
makes clear that DS is doing a remarkable job preparing its 
people to provide robust security in an unpredictable 
environment. But I do want to highlight a major concern that 
GAO raises.
    GAO's report finds that diplomatic security training 
facilities are inadequate. The Bureau is using 16 different 
leased, rented, or borrowed facilities. In some of these sites, 
the Bureau's training needs are not a priority, which increases 
costs and leads to training delays. Also, some facilities are 
too small or in need of repair. Although the Bureau is in the 
process of selecting a site to build a consolidated training 
facility, this will take years to complete.
    Another significant concern that I have, which I asked the 
Bureau to address today, is how it oversees its large 
contractor workforce. As Diplomatic Security provides security 
in more high threat areas, the Bureau grows increasingly 
reliant on contract staff. Contractors make up about 90 percent 
of its total workforce. This requires the Bureau to train its 
workforce and contract oversight in addition to physical and 
personal security.
    The 2007 Blackwater shooting that killed 17 Iraqi civilians 
while protecting a State convoy reminds us that DS contractors, 
particularly those acting as bodyguards, must be held to the 
highest standards for training and accountability because the 
stakes are tremendously high.
    I also look forward to hearing about what steps the Bureau 
has taken to address key issues raised at the Subcommittee's 
2009 hearing. I am particularly interested in the Bureau's 
progress in addressing language proficiency shortfalls and 
staffing gaps, balancing the need to provide strong security 
with carrying out the diplomatic mission, and improving its 
strategic planning, which is important for targeting limited 
resources in this budget climate.
    I know that Ambassador Boswell and his team are working 
hard to address these challenges. I look forward to hearing 
about the Bureau's efforts, as well as discussing ways we can 
work together to move forward. I thank our witnesses for being 
here today to discuss these critical issues.
    I look forward to hearing from our first panel of witnesses 
and welcome them here today. Ambassador Eric Boswell, the 
Assistant Secretary of State for Diplomatic Security, and Jess 
Ford, the Director of International Affairs and Trade at the 
Government Accountability Office.
    I understand that Mr. Ford is retiring on Friday after 38 
years of Federal service, and this will be his last time 
testifying before this Subcommittee. Over the years, Mr. Ford 
has done extensive work on improving State Department 
operations and management of American embassies, and we 
certainly will miss him. The GAO informed us that you have 
testified before this Subcommittee more than any other GAO 
staffer.
    This Subcommittee has placed great value and trust in your 
work, and it is with great appreciation, Mr. Ford, that I say 
mahalo nui loa, thank you very much for your years of valuable 
service with GAO, and I wish you success in your future 
endeavors.
    As you know, it is the custom of this Subcommittee to swear 
in all witnesses and I ask both of you to stand and raise your 
right hand.
    Do you solemnly swear that the testimony you are about to 
give this Subcommittee is the truth, the whole truth, and 
nothing but the truth, so help you, God?
    Mr. Boswell. I do.
    Mr. Ford. I do.
    Senator Akaka. Thank you. Let it be noted for the record 
that the witnesses answered in the affirmative.
    Before we start, I want you to know that your full written 
statements will be made a part of the record, and I would also 
like to remind you to please limit your oral remarks to 5 
minutes.
    Ambassador Boswell, it is always good to have you, please 
proceed with your statement.

   STATEMENT OF THE HONORABLE ERIC J. BOSWELL,\1\ ASSISTANT 
  SECRETARY FOR DIPLOMATIC SECURITY, U.S. DEPARTMENT OF STATE

    Mr. Boswell. Thank you, Senator Akaka. I am honored to 
appear before you today.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Boswell appears in the appendix 
on page 27.
---------------------------------------------------------------------------
    I would like to thank you and the Subcommittee Members for 
your continued support and interest in the Bureau of Diplomatic 
Security's programs. This support enables Diplomatic Security 
to safeguard American diplomats and facilities for the conduct 
of U.S. foreign policy, while also maintaining our robust 
investigative programs which serve to protect the U.S. borders 
and our presence overseas.
    DS's training program is at the core of our readiness to 
fulfill these missions. So with your permission, I will make a 
brief statement. As I have stated before this Subcommittee in 
the past, DS continues to provide the most secure environment 
possible for the conduct of America's foreign policy.
    I must reiterate that the scope and scale of our 
responsibilities and authorities have grown immensely in 
response to emerging threats and security incidents. 
Significant resources are necessary if we are to meet the 
requirements of securing our diplomatic facilities in the 
extremely high threat environments of Iraq, Afghanistan, 
Pakistan, Sudan, Yemen, Mexico, as well as other dangerous 
locations worldwide.
    The Department now operates diplomatic missions in places 
where, in the past, we likely would have closed the post and 
evacuated all personnel when faced with similar threats. 
However, the need to conduct diplomacy in the post-September 
11, 2001 environment is essential to our Nation's security.
    To meet our challenges now and in the future, DS personnel 
and resources have grown and evolved. We are engaged in an 
intensive recruitment campaign. We have increased our outreach 
to colleges and universities with an eye toward building a 
professional service that reflects America's diversity.
    As a result of our ambitious recruitment efforts, we have 
reduced our vacancy rate. This expansion has also changed the 
requirements for training our people. DS training has 
progressed tremendously in the past several years. The GAO 
review of DS training accurately reflects the success of our 
Training Directorate despite the challenges we face.
    To ensure that the personnel we deploy are highly 
qualified, we carefully evaluate our training programs. By 
incorporating student feedback, we can offer the highest 
quality instruction to new and existing DS personnel. This 
evaluation process helps to verify that the training offered is 
relevant to the new realities of the Department's mission.
    It also ensures that DS personnel are prepared to assume 
increasing security responsibilities in high threat and other 
challenging environments. However, as noted in the recent GAO 
report, existing DS training facilities and instructor 
resources are now at maximum student capacity and capabilities. 
A new Foreign Affairs Security Training Center (FASTC) would 
expand and improve the delivery of DS training for U.S. 
Government employees.
    Personnel serving in contingency zones must not only be 
trained and prepared to assume the increasing security 
responsibilities, but also have the necessary support services 
available to them both during and after their assignment to 
high-stress posts.
    The Department fully realizes that when one of its 
employees serves in a high-threat environment, the employee's 
whole family serves with him or her in one form or another. A 
full array of services is available to these personnel and 
their families from medical doctors, psychologists, 
psychiatrists, and others. I want to assure the Subcommittee 
that we are paying attention to all personnel who have been or 
could be affected by Post Traumatic Stress Disorder(PTSD), and 
addressing any issues early on to help those persons in need.
    The Department uses private security contractors (PSCs), to 
assist in meeting security staffing requirements in critical 
threat and non-permissive environments such as Iraq and 
Afghanistan. As a result of operational changes already 
implemented and reviewed during the conduct of the Department's 
Quadrennial Diplomacy and Development Review (QDDR), the 
Department is able to provide proper management, oversight, and 
operational control of the PSCs it has deployed overseas.
    The Worldwide Protective Services (WPS) contract awarded in 
September 2010 incorporated essential lessons learned to ensure 
that PSCs contracted by the Department perform their activities 
in a professional, responsible, culturally sensitive, and cost-
effective manner.
    DS continues to explore ways to provide innovative security 
blueprints to help implement our national foreign policy 
priorities. We must continue to develop a cadre of DS personnel 
who can think creatively to propose solutions, who can speak 
the language, and who can work closely and cooperatively with 
their embassy colleagues to succeed without sacrificing safety 
and security.
    In conclusion, I want to assure the Subcommittee that DS is 
fully prepared to provide the secure platform and environment 
the Department of State needs to meet the challenging 
diplomatic responsibilities we face in this ever-changing 
world.
    Mr. Chairman, thank you for the opportunity to appear 
before you. With your continued support, we will ensure that 
diplomatic security remains a valuable and effective resource 
for protecting our people, our information, and our 
infrastructure around the world.
    Senator Akaka. Thank you very much, Ambassador, for your 
statement. Mr. Ford, please proceed with your statement.

 STATEMENT OF JESS T. FORD, DIRECTOR,\1\ INTERNATIONAL AFFAIRS 
        AND TRADE, U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Ford. Thank you, Mr. Chairman, and I want to start by 
thanking you for your kind comments regarding my lengthy career 
at GAO. Thirty-eight years is a long time, but I am looking 
forward to retirement.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Ford appears in the appendix on 
page 37.
---------------------------------------------------------------------------
    I am pleased to be here today to discuss training efforts 
of the Bureau of Diplomatic Security at the State Department. 
My testimony is based on our report which is being released 
today. Diplomatic Security is responsible for the protection of 
people, information, and property at over 400 embassies, 
consulates, and domestic locations.
    And as we have reported in previous testimony, they have an 
expanded mission and they have had a significant growth in 
their budget and personnel over the last decade. Diplomatic 
Security trains its workforce and others to address a variety 
of threats, including crime, espionage, visa/passport fraud, 
technological intrusions, political violence, and terrorism.
    To meet its training needs, Diplomatic Security relies 
primarily on its training center, which is part of its Training 
Directorate, and it is the primary provider of diplomatic 
security training activities. Diplomatic Security's training 
budget has grown steadily from Fiscal Year 2006 to 2010 from 
approximately $24 million to $70 million.
    Today I am going to talk a little bit about the two main 
issues in our report, the first having to do with the quality 
of Diplomatic Security's training and the appropriateness of 
its training and the extent to which it ensures that training 
requirements are met; and second, I am going to talk a little 
bit about the challenges currently facing Diplomatic Security.
    We reported that DS has had to meet the challenge of 
training more personnel to perform additional duties, while 
still getting its agents, engineers, technicians, and other 
staff into the field where they are needed. DS has largely met 
this challenge by maintaining high standards for its training.
    Specifically, DS incorporated Federal Law Enforcement 
Training Accreditation (FLETA) standards into its operating 
procedures, and is the first government organization to be 
accredited by FLETA standards.
    Certain issues, however, have constrained the effectiveness 
of some DS training activities. In our report, we noted that DS 
lacks a comprehensive system to evaluate the overall 
effectiveness of some of its training, particularly online 
training which is growing in significance in terms of activity 
there.
    Second, we said that DS has not been able to accurately 
track the overall training of all the people who take training. 
To some extent, this is an issue with non-State staff who have 
been training in certain courses that are required when they 
are stationed overseas in dangerous locations. We made a couple 
of recommendations to improve the systems and State has agreed 
with both of them.
    Our report also identifies other challenges facing DS. 
First, DS must train diplomatic security personnel to perform 
new missions in Iraq as they take over responsibilities that 
heretofore have been performed by the U.S. military.
    DS has had little or no experience in providing certain 
types of training activity that the military currently is 
responsible for, such as how to deal with downed aircraft, 
explosive ordnance disposal, and rocket and mortar 
countermeasures, among others. Because of this increased 
security responsibility, DS anticipates that it is going to 
have to rely heavily on contractors to carry out these types of 
responsibilities.
    DS officials noted that the additional training that will 
be needed will likely increase their need to put more people 
into the field. Any delays in finalizing State's expanded 
mission in Iraq could also affect DS's ability to develop and 
deliver any types of additional training.
    A second major challenge that we identified in our report 
has to do with the increasing requirements laid out in the 
State Department's Quadrennial Diplomacy and Development 
Review. In essence, the review calls for DS to significantly 
increase training for staff posted to more high threat and 
critical posts.
    The numbers in our report suggest that they would have to 
increase training from 23 to 178 posts, and that the number of 
students that might have to be trained for high-threat posts 
could increase, as you noted in your opening statement, from 
2,000 to 10,000. This would have significant implications for 
DS in terms of its budget and its training requirements.
    Finally, the issue that you identified in your statement 
and our third challenge in our report has to do with DS's 
training facilities. Currently, they have a highly 
decentralized set of training facilities. You mentioned the 16 
that we have in our report.
    We found that many of these are substandard and have a 
number of inadequacies. Our report details a number of examples 
where DS is unable to effectively deliver realistic training 
because of shortfalls in these facilities.
    Recognizing that these existing facilities are inadequate, 
DS has proposed establishing a consolidated training center. 
They are currently looking at two potential sites. They have 
been provided approximately $136 million to help develop these 
sites. However, it is unclear what the total cost of building 
such a site will be, and it is also uncertain when the site 
might be available. So we have some concerns in the short term 
about how DS is going to be able to meet this increasing 
mission.
    Mr. Chairman, I think I am going to stop here and answer 
any questions you might have.
    Senator Akaka. Thank you very much, Mr. Ford. I thank both 
of you for your statements.
    Let me start with a question for Ambassador Boswell. 
Ambassador, President Obama recently announced plans to 
withdraw 33,000 troops from Afghanistan by next summer, and 
fully transition security responsibilities to the Afghan people 
by 2014. I support these plans and look forward to welcoming 
home our brave troops.
    As you know, many diplomats and Federal civilian employees 
will continue to serve in Iraq and Afghanistan after the troop 
withdrawals. I worry about the degree of risk we are asking 
them to undertake.
    What planning is underway to make sure that DS will be 
fully prepared to protect diplomats and U.S. civilian personnel 
in Iraq and Afghanistan as the military withdraws?
    Mr. Boswell. Mr. Chairman, thank you for that question. We 
are engaged, we the Department of State and DS, are engaged in 
a marathon of planning. I think that is the right way to 
describe it. It is probably the planning for the transition in 
Iraq is probably the most complex planning effort ever 
undertaken by the State Department and perhaps one of the most 
complicated civilian planning efforts ever taken by the U.S. 
Government.
    We have been working on it for years. We think we have a 
very good planning structure set up and we think we have a good 
plan, and the short answer to your question, sir, is that I 
think we will be in a position to provide the security for our 
people in Iraq after December 31st of this year when all U.S. 
troops will be gone from the country.
    Having said that, as I said, it is a very complex and 
difficult task. We are going to be dramatically increasing the 
number of security personnel at posts in Iraq, and we will be 
increasing also the use of contractors, in part for some of the 
things you mentioned and Mr. Ford mentioned, certain functions 
and activities that are not mainstream Department of State 
functions, and where we are taking over functions now provided 
by the U.S. military.
    We think we have the structure in place to do it. I should 
make the point that combat operations in Iraq ceased over a 
year ago. U.S. military combat operations in Iraq ceased over a 
year ago. We have been providing security to our very large 
U.S. embassy in Bagdad for over a year without any assistance 
from the military beyond certain very specialized functions, 
and we expect to be able to continue to do that.
    You asked about Afghanistan, also, sir. Obviously, we are 
not there yet. There is not a transition yet. The President has 
just announced the beginning of a drawdown in Afghanistan. But 
I can assure you that we have learned a lot in the planning 
process for Iraq and we will apply those lessons in 
Afghanistan.
    Senator Akaka. Thank you. Ambassador, as the military 
withdraws from Iraq and later Afghanistan, DS will provide 
certain security and protective services that the military is 
performing now such as downed aircraft recovery and explosive 
ordnance disposal. However, the military provides many services 
such as intelligence collection and providing a visible 
deterrence in ways that DS cannot.
    How will the loss of these important capabilities affect 
the way DS provides security in Iraq and Afghanistan? And is DS 
equipped to handle all of the functions it will be asked to 
assume?
    Mr. Boswell. Mr. Chairman, I was in Iraq several years ago 
and the security situation in Iraq now, I think it is fair to 
say, is infinitely better than it was at the worst of times, 
2005 to 2007. You are right, sir, in saying that certain key 
functions of the U.S. military will be absent. They cannot be 
replaced by DS, notably counter-rocket fire. There is not an 
offensive unit in DS. Some intelligence functions as well.
    As Iraq normalizes as a Nation, we are going to rely, as we 
do in most countries, on the Iraqi forces and the Iraqi police 
for these functions to the maximum extent that we can.
    Senator Akaka. Mr. Ford, in 2009, GAO recommended that 
State conduct a strategic review of Diplomatic Security's 
mission, budget, and personnel as part of State's Quadrennial 
Diplomacy and Development Review. While State agreed with the 
recommendation, the QDDR did not include this strategic review. 
Will you please discuss how inadequate strategic planning may 
affect the DS operations?
    Mr. Ford. Yes, Mr. Chairman, let me respond to that. First 
of all, I can say that we were disappointed that the QDDR did 
not take a more strategic look at DS operations. Our 2009 
report noted that DS has been required to expand the number of 
missions that it is asked to support by the Department overall 
and that they are often put into what I would characterize as a 
reactionary posture which we do not think is good from a 
planning point of view, and our goal of that 2009 report was 
that the Department would take a longer look at DS and come up 
with a more strategic way of assessing needs, resources, and 
requirements.
    I think I can say that our current report, which is focused 
on the training part of DS, suggests that there still seems, in 
my mind, to be a gap here. DS is certainly trying to respond to 
all the new missions that are laid on them.
    We just discussed the Iraq and Afghanistan situations that 
are coming up, and the fact that their training facilities are 
not up to speed. How they are going to be able to, at least in 
the short term, respond to the likely increased growth in 
training capability that they are going to have to develop.
    A lot of those kind of issues, in my mind, could have been 
included in a strategic review. So I think from our 
perspective, we still would like to see the Department take a 
broader view of DS in order to give them a little more lead 
time in figuring out what their needs are.
    I think certainly the issue of human capital, the 
capabilities of people to do contract oversight, those type of 
issues are the kind of issues that DS is going to be faced with 
over the next couple of years. The Department needs to, in our 
view, do a more comprehensive review of what they need. So as 
far as we are concerned, that recommendation has not been fully 
enacted by the Department.
    Senator Akaka. Let me followup with a question to 
Ambassador Boswell. Ambassador, DS faces unprecedented 
challenges as it takes on new responsibilities in Iraq and 
Afghanistan while continuing to protect U.S. diplomats 
worldwide. To meet these challenges, DS must use its limited 
resources strategically. What steps has the Bureau taken to 
develop a strategic plan?
    Mr. Boswell. Mr. Chairman, as a result of the 
recommendation in the GAO report--the GAO report of 2009 had 
basically two recommendations on strategic planning. One was 
the Department, as Mr. Ford has just said, should look at DS in 
a strategic manner. And the second one was that DS should 
improve its own strategic planning.
    I certainly agree with that. We have put together a 
strategic planning unit which is very closely linked to our 
budget process, and which I meet with every 6 months, and my 
senior leadership meets with much more often than that. It has 
been extremely helpful, in various ways, to the way we do our 
business and the way we look forward. And I think this is an 
initiative that is working successfully.
    In terms of the broader question that Mr. Ford just raised, 
we will certainly take that back with us again to the 
Department. The QDDR, which was Secretary Clinton's signature 
initiative when she came to the Department, was a strategic 
review, but it was not a strategic review at DS. It was a 
strategic review overall and implementation of the various 
recommendations, including a couple that have been mentioned in 
testimony here, is ongoing.
    Senator Akaka. Ambassador Boswell, DS performs many 
important roles in addition to protecting State Department 
employees and embassies, including providing protective details 
to foreign dignitaries and supporting security at international 
special events.
    In November, Hawaii will be hosting the Asian-Pacific 
Economic Cooperation (APEC) Leaders meeting. What plans does DS 
have in place to provide security and protective services at 
the APEC meeting?
    Mr. Boswell. Sir, DS is very extensively involved in the 
planning for APEC which, as you said, will take place this 
fall. It has been designated as a national security special 
event by the White House. The lead agency is the U.S. Secret 
Service which is appropriate given the number of heads of State 
that will be visiting.
    But DS will also have a major presence in Honolulu. We have 
a lot of protectees in association with the APEC meeting, 
foreign ministers, for example, and others, and we will be 
working--have been and will be working very, very closely with 
the Secret Service and the local authorities and other Federal 
agencies as well to have a good, successful, safe event.
    Senator Akaka. Thank you.
    Mr. Ford, as I mentioned in my statement, GAO found that DS 
has inadequate training facilities. The Bureau currently uses 
16 different facilities for training, some of which are 
overcrowded or need repair. While DS has developed an interim 
training facility, your report suggests that it is not adequate 
to support all of the Bureau's training needs, especially with 
the Iraq transition.
    Would you please elaborate on the effects of these 
inadequate training facilities?
    Mr. Ford. Yes. There are several issues that we identified 
in our report regarding the condition of the facilities. Some 
of them have to do with access--whether or not the Department 
can get access to certain types of training.
    The one that we cited in our report had to do with heavy 
firearms training that they currently provide down at Quantico 
Marine Base, and the issue there is DS does not--because it is 
a Marine Base, they have to kind of schedule their training 
around the Marines' needs, which does not necessarily always 
correspond to the needs and requirements of the Department. So 
there is an access issue that they have to address.
    Other facilities that we visited, they just are not 
realistic in terms of the type of structures that are there to 
carry out the type of training that DS is trying to provide to 
staff. It is really, in this case, I would call it a realism 
problem.
    In the report, we cite a case where they are trying to 
simulate conditions of entering a facility and how to enter it 
in a secure manner, and their training space did not have walls 
so they basically used tape on the floor to simulate where a 
wall would be. That is not very realistic.
    At other facilities where they train with light arms 
firearms, we found that some of the firearms lanes were not 
adequate to their needs. So there are some issues with regard 
to just the physical infrastructure and whether they have the 
capacity there to effectively carry out the type of training 
they need to carry out.
    And then the second issue, and the one I mentioned earlier, 
has to do with whether or not the facilities that are currently 
inadequate, whether they are going to be able to expand their 
training mission with all the new people that they have to 
train to do the Iraq and Afghanistan missions, and potentially 
the QDDR requirement, if they have to implement that fully, it 
is not clear to us whether the current facilities that they 
have will allow them to have that capacity to even do the 
training. So that is the second issue that we are concerned 
about.
    And then that third issue has to do with their goal of 
creating a consolidated training center; it's years down the 
road before that facility may be up and running. So there is an 
interim period here where it is not clear to us whether DS will 
have the capabilities, with the current facilities that they 
have and the shortcomings they have, to be able to effectively 
carry out all the training they need to do.
    Senator Akaka. Ambassador Boswell, I would like to hear 
from you on that issue as well. Will you please discuss how DS 
is coping with these challenges and how the Bureau will meet 
its expanding training needs until a consolidated facility is 
operational?
    Mr. Boswell. Yes, sir. Let me start by saying I completely 
agree with everything that Mr. Ford said, and I welcome that 
conclusion. In fact, I welcome all the conclusions of the GAO 
report, but particularly that one because that is close to our 
heart in DS. The problems he described are real.
    We have long needed and long sought a Foreign Affairs 
Security Training Center, as well call it. We have been in the 
process for years of trying to obtain such a facility. We have 
obtained startup funding for such a facility. We went through 
an extensive process with the General Services Administration 
(GSA), which is the U.S. Government's real estate czar, with 
the General Services Administration to identify sites for such 
a facility within a reasonable distance of Washington, DC.
    We had a look of, I think, well over 40 possible--we 
solicited first interest from other government agencies, the 
private sector, et cetera, et cetera. We look at about 40 
sites. I think it may have been a little bit more. We ended up, 
after a very long process with the GSA, settling on one 
particular site on the eastern shore of Maryland.
    Unfortunately, last year, that came a cropper, came a 
cropper because of local opposition to the site. It is one of 
the problems that we have. To do all the facilities, to do all 
the training that we have to do, we need a pretty large site 
and it is hard to find a large site that is appropriately 
configured within reasonable distance of Washington, DC. So we 
basically had to go back to the beginning and start over.
    This process is ongoing. We are closing in, I think you 
could say, on a site. We have had to change our criteria a 
little bit to permit us to look a little further out from 
Washington.
    That is a little bit of a problem for us because while it 
makes the choice, the selection of sites a little bit easier, 
it also means that since it is beyond simple driving range, 
that our trainees will have to overnight and that means the 
construction of dorms and other facilities, cafeterias, such 
things, so that adds a little bit to the cost. But we are 
closing in on a site and hope to have something to announce in 
the coming months.
    But we absolutely, absolutely require this site. As Mr. 
Ford has said, we are spread out over a range of facilities 
now, and the biggest problem we have with that, aside from the 
dispersal, is that we do not own any of these facilities. So we 
run into the problems that he described. These are joint use 
facilities. We are sort of tenants in some way and it causes a 
problem for us.
    I am going on a little too long, Mr. Chairman, but I want 
to cover the question. It is a long question. How do we do our 
training in the interim? We are years ago, even if we get a 
site. We are years ago from having a full-fledged training 
facility. And we are going to have to continue to do what we 
are doing and what Mr. Ford and the GAO saw. We are going to 
have to continue to make do flexibly and with some imagination 
with what we have.
    Now, as for the requirement and the recommendation in the 
QDDR, our Foreign Affairs Training Center be expanded well 
beyond what is offered now, that is a real conundrum for us. We 
would have to have a new facility to do that. We would simply 
not be able to do it without a new facility.
    There is a real question. The figure of expanding and the 
number of trainees from 2,000 to 10,000 is sort of an outer-
outer figure. I cannot imagine that we would ever, even with a 
new facility, be training 10,000 people a year. We are working 
now with the Policy Planning staff of the State Department to 
decide what high-threat posts really should get this kind of 
training.
    Right now we give the training going to the war zones, 
Afghanistan and Pakistan--Afghanistan and Iraq, and we also 
give it to people going to Pakistan, to Yemen, to Sudan, and 
more recently, to the Mexican border posts which have become a 
much more dangerous place to work than in the past. We will 
certainly have to add some posts to that, which will bring up 
the numbers, but I do not think we are ever going to get to 
10,000.
    Senator Akaka. Thank you. Ambassador, in your testimony, 
you mentioned the implementation of specialized security 
immersion training costs for personnel assigned to Iraq. Will 
you please describe what this cost entails, including whether 
it involves foreign language training?
    Mr. Boswell. Sir, the FACT course, which is what you are 
talking about, is a course that is 5 days long. It does not 
address language training. It is a course that provides some 
skills to--it is not designed for DS agents. It is designed for 
regular government employees, Foreign Service people and those 
from other agencies who are going to high-threat areas.
    And it goes into such things as first aid, primary first 
aid. It goes into surveillance detection. It goes into how to 
drive a car in a high-threat area. It goes into--basically, it 
tries to prepare people for what they are going to encounter 
when they are in Iraq or Afghanistan and Pakistan.
    Senator Akaka. Ambassador Boswell, as you know, foreign 
language skills are critical to carrying out the diplomatic 
mission, including security operations. I am pleased that the 
percent of regional security officers (RSOs) who fulfill the 
language requirements for their positions has increased since 
2009. Will you please discuss what actions State has taken or 
still plans to take to continue increasing language proficiency 
among RSOs?
    Mr. Boswell. Mr. Chairman, I am very happy to answer that 
question. By way of background, I had this same job 10 years 
ago and 10 years ago, I can say that very, very few RSO 
positions overseas were language designated, which means 
required language training. I come back to the job after an 
absence of 10 years and I find that two-thirds of RSO positions 
are language designated, or something like two-thirds are 
language designated, and I think that is a very, very positive 
step in the right direction.
    I cannot tell you how valuable it is to see RSOs speaking 
the native language. I was just in Poland and watching my RSO 
there yammer away with his Polish counterparts in very fluent 
Polish. That is something we would not have seen 10 years ago.
    So I completely support language training for DS agents. 
GAO identified a problem a couple of years ago, as you 
mentioned, which was that too low a proportion of language-
designated RSO positions overseas were filled by people who had 
not tested up to the required level of that language.
    As you said, Mr. Chairman, we are much improved in the 
ensuing 2 years. I think in 2009, it was 47 percent of 
positions were held by language qualified officers, which meant 
53 percent were not. Now we are above 60 percent being filled. 
We are being extremely tough on language waivers, which is the 
way you go without the language, and we think those numbers are 
going way up and are going to continue to go way up.
    You have my personal commitment. I have made it to the 
Director-General of the Foreign Service who holds the whip hand 
over me on this, that we are going to do everything we possibly 
can to make sure that we have full language compliance.
    Senator Akaka. Thank you very much for that commitment.
    Mr. Ford, as you stated in your testimony, GAO found 
weaknesses in the Bureau's training systems such as not 
obtaining feedback from all training participants and not 
tracking all individuals who receive training. Please elaborate 
on why these weaknesses are important and how they may affect 
the Bureau's training.
    Mr. Ford. A couple issues here. Well, first of all, to 
answer your question regarding why it is important to get 
feedback on training, I mean, at the end of the day, one of 
your quality assessments is whether or not the people that have 
the training find it useful in their jobs.
    You need to know that so when you design or make any 
modifications to your training programs, you know what kind of 
changes to make instead of just guessing what works and what 
does not. So that is not unique to the State Department. That 
is a requirement that any training program ought to have.
    Our concern really had to do with the systems that DS and 
the Department use to track feedback that they get on certain 
types of training, and to also track training requirements of 
people who have taken training to make sure that they have the 
requirements and they are meeting them when they are supposed 
to.
    The current systems in place I would characterize as 
relatively ad hoc in the sense that they are using sort of like 
what I would personally use, spreadsheets to try to keep track 
of people versus an actual training management system that can 
track real time information, both in terms of getting feedback 
and also tracking requirements.
    The Department is aware of this. DS talked to us about some 
efforts that they are currently discussing with the Foreign 
Service Institute (FSI) to use their tracking system. At the 
time we issued the report, I do not know if that had been 
resolved yet, but there was the potential that the FSI system 
could be a vehicle to help come up with a more systematic way 
of tracking requirements.
    On the feedback loop, the issue there is a little more 
difficult because DS is increasingly using online training. It 
is a little difficult to track people who are going online just 
to know whether or not they have completed the training.
    So it is an area in which we think some improvement could 
be made in the systems, and in both of these cases, we 
considered these recommendations to be management improvements 
versus cases of major deficiency. We do not think that is the 
case, but we do think that they need to have a more systematic 
process.
    Senator Akaka. Thank you.
    Ambassador Boswell, you testified that DS is working with 
State's Foreign Service Institute on a learning management 
system to provide tracking and feedback collection for 
training. Please elaborate on this plan. What capabilities do 
you expect to obtain from this system, and when do you expect 
these improvements to be completed?
    Mr. Boswell. Senator, Mr. Chairman, let me say first that 
we are grateful to the GAO for pointing out these things. I 
think both recommendations regarding followup and feedback are 
good recommendations, and as Mr. Ford said, we are working on 
them.
    But let me say also, right from the top, that we do get 
feedback. We do constantly evaluate our training, particularly 
our high-threat training or the training for the combat zones. 
We could do better, but we do it. For example, our FACT 
training course which we were just discussing, the 5-day 
course, has been modified several times in response to 
suggestions from people going through it, suggestions from the 
field.
    We send a team from training every year to the combat zones 
with the sole mission of evaluating the training by 
interviewing the people that do get trained and are now at 
posts. We have made a number of significant changes since then 
as a result of that.
    We are working with the Foreign Service Institute to 
resolve some of the systematic tracking problems and feedback 
problems. The feedback problems, largely, have to do with 
problems getting feedback from folks, as Mr. Ford said, I think 
in his statement, folks from other agencies that cannot feed 
into our systems easily.
    We are looking to find a way around that and we are still 
working on it. I am sure we are going to be able to resolve it.
    Senator Akaka. Thank you. Ambassador, DS relies heavily on 
contractors to conduct its mission. Contractors represent over 
92 percent of its workforce. Has DS conducted strategic 
workforce planning to determine whether the current workforce 
balance is appropriate? And will DS reassess this balance as 
its mission changes and expands?
    Mr. Boswell. Sir, if I could clarify? The contractors you 
are talking about are largely, largely static guards at U.S. 
embassies overseas. We use contracts for static guards at every 
embassy. They are almost, without exception, contracts with 
local firms or direct hire of contractors that are local 
nationals.
    The part of our contracting that has been controversial has 
been the use of contractors in the war zones where they are not 
largely local hires. We have had to go to third country and 
Americans because of difficulties vetting the local population 
in the war zones.
    So of the contractor population that you just mentioned, 
the vast majority are in Paris or Cape Verde protecting our 
embassies. That is appropriate. It has been the way we have 
protected our embassies for years and I do not think we are 
going to change that.
    In Iraq and Afghanistan, we have not been able to go with 
that model for the reasons that I mentioned. The use of 
contractors, security contractors, and let us specify that we 
are talking about security contractors. The use of security 
contractors in those zones has been reviewed both internally in 
the Department extremely extensively, and also by outside 
organizations, notably the Commission on Wartime Contracting, 
which has been meeting continuous, which is a congressional 
commission which has been meeting for a year-and-a-half, at 
least.
    I went to Iraq myself years ago, in 2007, in the wake of 
the horrible incident involving Blackwater contractors at 
Nisour Square which resulted in the deaths of a large number of 
innocent Iraqi civilians. I was sent not to investigate that. I 
was not a State Department employee at the time. I was part of 
a small group of so-called experts, outside experts that was 
brought in to look at how the State Department provides 
security in the war zone.
    And one of the things we looked at was whether the use of 
contractors was the appropriate way to deal with it given all 
the circumstances, and we determined that there really was no 
reasonable alternative to the use of contractors, and every 
commission that I have ever heard of and every outside expert 
that we have ever consulted has come to the same conclusion. So 
I do not see a radical change in that.
    What I do hope, what I sincerely hope, Mr. Chairman, is 
that as things become more normal in Iraq over the years, and 
as things eventually, hopefully become more normal in 
Afghanistan, that we can revert to the use of local nationals 
for these functions.
    We have started doing that in Iraq and we are being careful 
about doing it. We have Iraqi nationals integrated into our 
security forces in the north, in Erbil. That is the Kurdish 
area in the north, and we hope, ultimately, to be able to 
continue to do that and expand that to other sections.
    Senator Akaka. Ambassador, two separate 2009 reports by 
State's Inspector General (IG) revealed that regional security 
officers were not receiving adequate training to prepare them 
for their contract oversight responsibilities. The IG also 
reported that contract oversight may not receive sufficient 
attention among the many responsibilities RSOs must fulfill. 
What is DS doing to address these issues?
    Mr. Boswell. Sir, before I answer that question, let me 
correct something or clarify something I said in response to 
your last question, which is, I said contractors are used for 
local guard functions, static guard functions around the world, 
which is true. We also have a much smaller number of directly 
locally engaged staff, in other words, not contractors, that do 
that function. But it is a minority. Let us put it that way.
    In terms of contract oversight, I think it is fair to say 
that if DS agents were not aware when they joined Diplomatic 
Security that they were going to become experts on contract 
oversight, they are now aware of it. It is a major function of 
our agents overseas.
    I think out of, for example, the hundred-and-some-plus DS 
agents that will be in Iraq at the beginning of 2012 when 
security responsibilities transfer over to us or when the 
military responsibilities transfer over to us, I think about 80 
of them will be doing contract oversight. They will be 
overseeing the contract forces, the contract guards and the 
bodyguards.
    I should explain. There are two kinds of guards. One is the 
static guards and the other are what we call protective 
security details (PSD). These are the bodyguards, the movement 
people that travel in the motorcades, in fact, run the 
motorcades.
    Our agents are getting extensive in-service training on 
contract oversight. Agents are contracting officer 
representatives at post overseas. They are assisted by other 
agents who are assistant contracting officer representatives. 
We also have another category of oversight of government 
technical monitors, which essentially are co-located with the 
guard camps, either physically co-located or visit them 
constantly and irregularly to make sure that things are well on 
the guard camps, and to assist the contracting officer's 
representatives in oversight of the contract.
    The training is, as I say, very extensive and continuous 
and the on-the-job training is also very important.
    Senator Akaka. Thank you. Ambassador, in response to 
shortcomings in contractor oversight, DS has created a new 
cadre of security protective specialists. What policies and 
training are in place to make sure that these specialists can 
conduct effective oversight of security contractors?
    Mr. Boswell. Sir, that is closely linked to the answer I 
gave you to the previous question. Our security protective 
specialists are a new kind of specialist in DS, in the State 
Department. They were started as a pilot program and rapidly 
evolved into a very significant DS--rapidly evolved away from a 
pilot to a full-fledged functioning DS program.
    Special Protective Specialist (SPS), as they are called, 
are not full-fledged DS agents. DS agents are law enforcement 
people and they had 4 years of training, or largely 4 years of 
training, before they ever go overseas. And they do not only 
protective functions that we have been talking about here, but 
law enforcement functions, criminal investigations. They have 
badges, they have arrest powers, this sort of thing.
    Security protective specialists are there solely to 
exercise direction and oversight of the contract guards during 
movements. In the wake of the Nisour Square incident, the 
commission that I was part of, or the committee that I was part 
of, we made 30 or 40 recommendations, almost all of which--I 
think all but one--were adopted by the State Department.
    And one of the most important ones was that every 
motorcade--and nobody moves in Iraq without being in a 
motorcade of some sort. Every motorcade which is manned by 
contractors would have a DS agent in operational control of the 
motorcade.
    All of a sudden it required the Department to hire a bunch 
more DS agents. It caused some of the other problems that you 
have touched on in the past, including the gaps in language 
training and things like that, because we had to get agents, a 
large number of agents, to Iraq and Afghanistan as well, to do 
this function.
    Now we have hired or we have created this specialty so that 
it is not DS agents themselves, in many cases, that are doing 
this oversight. It is the security protective specialist 
contractors--not contractors--security protective specialists 
that do the operational direction.
    Now, I have to clarify. They have nothing to do with 
contract administration. They are directing the motorcades. 
They are not contracting officer representatives or anything 
like that. They are simply in charge of the movements.
    Senator Akaka. Thank you Ambassador.
    Mr. Ford, I would like to give you an opportunity as well 
to comment on the steps DS is taking to strengthen contract 
oversight. In your view, what best practices should DS consider 
to effectively manage a large contractor workforce?
    Mr. Ford. Mr. Chairman, I have a couple of comments I would 
like to make. First, GAO currently has an ongoing engagement 
specifically looking at this issue with regard to contract 
oversight in Iraq. That team is in the early stages of the 
review, so I am not in a position to comment directly about 
what we are finding there.
    I can comment a little bit more generically about the types 
of elements that should be considered in overseeing contractors 
in general, particularly in this area. Most of these are pretty 
well known, the first one having to do with having a strategic 
planning concept of how you are going to use these contractors, 
whether or not you have the right skill sets, making a decision 
between whether or not these should be government positions 
verus non-government positions.
    There are some situations when you really do not want to 
have a contractor acting in a governmental role. GAO has 
reported on that in several instances in the past.
    The issue of oversight capacity is one that comes up 
frequently in GAO reviews, in general, and in relation to 
contractors. Risk management principles, we frequently have 
commented on the need to ensure that we are making the right 
kind of decisions in terms of the environments that we are 
going to be asking contractors to work in, and also that we 
have oversight mechanisms to deal with them. The issue 
regarding mobility in a dangerous place, obviously, it would be 
a risk mitigation issue that needs to be examined.
    And then finally, I think the issue of having adequate 
staff resources to effectively oversee a large contracting 
contingent is critical. If you do not have enough people to 
conduct the oversight function, oftentimes the problems crop 
up. We find that time and again in the work we do on 
contracting.
    So those type of elements need to be put in place. I think 
the Ambassador has touched on many of them in his comments. And 
so, the real issue is whether those elements are going to be 
all put in place in a timely basis, because the military is 
going to be out by the end of the year. I think that is a 
critical issue that we hope will be addressed, and our team is 
currently studying this issue. Hopefully we will be able to 
share more details on how the Department is responding to this 
problem.
    Senator Akaka. Ambassador, in 2009, GAO found that 
approximately one-third of Diplomatic Security's domestic 
officers were operating with a vacancy rate of 25 percent or 
even higher. What are the current vacancy rates within DS for 
both domestic officers and overseas posts? And what steps is DS 
taking to address its staffing shortfall?
    Mr. Boswell. Mr. Chairman, we are very grateful to the 
Congress for the support that we have had over the years, and 
particularly since September 11, 2001 and the great expand at 
the beginning of the intervention in Iraq. The support we have 
had from the Congress on a budgetary side, as all the testimony 
has shown so far, DS has dramatically expanded in size, 
dramatically expanded in size to go with dramatically expanded 
responsibilities.
    We have an active recruiting campaign going on. We are 
going to be able to meet our recruiting goals for DS agents. We 
have never really had a problem with that. This is an 
attractive career to many people, a prestigious career to many 
people, and so we do not have problems attracting recruits.
    In fact, one of the strong impressions I have from having 
been away for 10 years is the quality of the agents is even 
higher than it was. And I am very, very pleased with that.
    We also had some recruiting shortfalls in certain areas. We 
have largely, I think, resolved them. The SPS area, which I was 
just talking about, I really, frankly, I was very worried that 
we would be able to attract the number of people to that 
specialty. These are limited career appointments that we are 
talking about. But we expect to be able to fulfill our quota, 
if you like.
    We also had some shortfalls on the engineering side. That 
is a very important part of DS. And we think we are going to be 
up to speed on that one as well. There is a sub-category of 
engineering called security technical specialist. We still have 
some work to do on that.
    Our overall vacancy rate is 9 percent, which I think is an 
entirely defensible rate. I have to tell you, Mr. Chairman, 
that anybody that goes to our field offices in the States is 
often struck by the number of empty desks in those field 
offices. That is not due to a vacancy rate.
    That is because our agents are in the field and really 
represent--I mean, we tell all agents when they come into DS 
not to have the wedding anniversary in September, not to have 
any children born in September, because everybody is going to 
be at the U.N. General Assembly, everybody in DS, by the 
hundreds, is going to be at the U.N. General Assembly and that 
is just what we do for that month.
    So they come out of the field offices and you see a lot of 
empty desks. But we are rather satisfied with our--I think we 
are satisfied with our vacancy rate right now.
    Senator Akaka. Ambassador, I am pleased that State and DS 
are taking steps to better support employees and their families 
when officers serve in high-threat posts, such as raising 
awareness of psychological health issues and establishing peer 
support groups.
    This will be especially important as more employees serve 
in so-called conflict zones. How is State and DS assessing the 
effectiveness of these efforts to make sure they meet the needs 
of employees and their families?
    Mr. Boswell. Sir, this is an assessment that is done by DS 
and the Office of Medical Services and the Director-General of 
the Foreign Service as well. We have only been in combat zones 
since 2003, but in those 7 years, we have acquired a 
considerable amount of experience with employees working in 
zones of conflict.
    As I mentioned in my opening statement, we have learned a 
lot from the military who do this extremely well, as you know, 
sir. And we provide our employees with, I would say, a full 
menu of services, medical, doctors, psychologists, 
psychiatrists, and other qualified medical personnel providing 
support. But we go well beyond that.
    We have, for example, in DS, a peer support group, a peer 
to peer support group, agents working with agents to provide 
support for those coming out of the combat zones. We have a 
program--we the Department--has a program that mandates a high-
threat out-brief, if you like, of anybody coming out of the 
combat zones, at which problems can be flagged and dealt with.
    It is a very different experience for a Diplomatic Security 
agent to serve in Iraq supervising a motorcade, and then going 
on to be an RSO in Finland. So there is a cultural and 
emotional and job-type shift that goes on, and those folks have 
to adjust to a very different kind of environment and we help 
them to do that.
    We also give a heads-up to the embassies that are gaining 
these folks, that they have to be aware of certain issues, and 
I think we do a good job of that. We include it as part of 
Ambassadors' training, that they will be having people that 
come out of the war zones and they need to be aware of that. So 
I think we do everything that we can in that regard.
    Senator Akaka. I certainly appreciate all of your 
responses. I have a final question for you, Ambassador Boswell, 
and then I will give Mr. Ford an opportunity to make final 
comments.
    Ambassador, providing a secure environment for the 
diplomatic mission, especially in high-threat areas, requires 
significant resources. However, the current funding environment 
has created a great deal of uncertainty. What risks and 
tradeoffs would DS have to make if the Bureau were not provided 
consistent funding?
    Mr. Boswell. That is a crucial question, Mr. Chairman. It 
certainly is. And you are absolutely right that funding has not 
been certain or secure. We are in an extremely difficult 
funding environment now in the United States, a financial 
environment in the United States, and the discussion in the 
Congress about our budget have been extremely active, to put it 
mildly.
    But the point I want to make, I think, is that we have been 
looking at our numbers extremely carefully. The people that sit 
behind me here are part of that, in fact, the backbone of that 
team. And we have scrubbed our numbers very carefully and we 
are confident, with the budget numbers that we have put 
forward.
    If we do not get the kind of funding from the Congress that 
we need to do what we have to do in Iraq, or what we would like 
to do in Iraq, we will simply have to do less in Iraq. The 
point I want to make here is that nobody in the State 
Department, nobody in the leadership in the State Department, 
has ever asked me to compromise on security. They have asked me 
to look at my numbers, but they have never asked me to do with 
less security than I feel comfortable with.
    In other words, if we get less funding, we will do fewer 
things. We had originally planned, for example, to open four 
consulates in Iraq. That is down to two. The other ones are 
still in sort of a suspended animation depending on where the 
funding comes from. I have never been asked to compromise on 
the security I provide to any of those.
    Senator Akaka. Thank you so much for your response.
    Mr. Ford, would you like to make any final statements?
    Mr. Ford. Well, Mr. Chairman, I think your last question is 
a good one because I think the government, as a whole, is going 
to be having to address this issue of the fiscal problems in 
this country and our ability to conduct missions that we are 
asking all agencies to conduct overseas.
    I think I would echo the concerns raised by the Ambassador, 
that there is a tradeoff. When you are talking about security, 
DS's role is really protecting other U.S. officials overseas in 
these countries. And so, to the extent that resources may not 
be available to conduct their security, it really has a major 
impact on our ability to conduct foreign policy and foreign 
affairs.
    So I think that is the challenge that the Department of 
State is, I guess, trying to come to grips with now and is 
likely going to have to come to grips with in the next couple 
of years. We would like to see a little more strategic thinking 
on this issue versus reaction. I do not think it is fair to DS 
to have to react to a situation when it could have maybe been 
pre-planned in advance so that they can come up with 
contingencies.
    I am sure that they have to deal with this every day and I 
am sure they do a fine job of it, but the Department as a 
whole, in my mind, needs to be more forthright, I guess, in 
coming up with what the contingencies are going to be if we do 
not get the resources. So I think this is going to be a 
challenge that the Department is going to be faced with in the 
next several years along with the rest of the Federal 
Government.
    I am hopeful that they will take it seriously because the 
security, as the Ambassador has mentioned, is probably the most 
important mission that DS has in these dangerous environments 
that we are asking our people to work in.
    Senator Akaka. Thank you very much, Mr. Ford. Again, I want 
to wish you well in your future.
    Ambassador, thank you so much for your work. Your service 
to our country has been great. I want to be as helpful as I can 
supporting the Bureau to fulfil its mission. Again, I thank you 
both for being here today. Your testimony, your responses have 
been valuable and will certainly help us in our work here in 
the U.S. Senate. So thank you and aloha to you.
    Now I would like to call our second panel. I want to 
welcome Susan Johnson, President of the American Foreign 
Service Association (AFSA). It is the custom, as you know, to 
swear in our witnesses, so will you please rise and raise your 
right hand?
    Do you solemnly swear that the testimony you are about to 
give the Subcommittee is the truth, the whole truth, and 
nothing but the truth, so help you, God?
    Ms. Johnson. I do.
    Senator Akaka. Thank you. It will be noted in the record 
that the witness answered in the affirmative.
    Before I start, I want you to know that your full statement 
will be made part of the record, and I would also like to 
remind you to please limit your oral remarks to 5 minutes. Ms. 
Johnson, please proceed with your statement.

  STATEMENT OF SUSAN JOHNSON,\1\ PRESIDENT, AMERICAN FOREIGN 
                      SERVICE ASSOCIATION

    Ms. Johnson. Thank you, Mr. Chairman. The American Foreign 
Service Association (AFSA) welcomes the opportunity to speak 
before this Subcommittee on the subject of diplomatic security 
and its implications for U.S. diplomacy. And let me say at the 
outset that the diplomatic security agents that I have had the 
privilege to work with in my postings have been highly 
professional and competent and AFSA has high regard for the 
dedication of DS and their record on security issues.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Johnson appears in the appendix 
on page 48.
---------------------------------------------------------------------------
    In an increasingly complex and dangerous global environment 
in which foreign policy and the Foreign Service are required to 
operate as our Nation's first line of defense, the need to 
ensure the safety and security of our Foreign Service personnel 
cannot be over-emphasized. The challenge assumes particular 
gravity with the expanding requirement for Foreign Service 
missions, personnel, and programs in conflict zones.
    The June 2011 Government Accountability Office report on 
Diplomatic Security and critical challenges to its training 
efforts identifying some systemic weaknesses or gaps in the 
structure and substance of our Diplomatic Security training, 
particularly looking forward, recommended that the Department 
of State enhance Diplomatic Security training center course 
evaluation and tracking capabilities, and develop an action 
plan to address proposed increases in high-threat training.
    It is not clear to us whether the current training programs 
are well designed to meet the challenges of the expanded 
mission, especially in Iraq, or whether Diplomatic Security 
will have the flexibility it needs to deal with poorly 
performing security contracts or other problems, and to respond 
quickly and creatively to unpredictable developments or new 
situations on the ground.
    The January 31 Senate Foreign Relations Committee report on 
Iraq, the Transition from a Military Mission to a Civilian-Led 
Effort, addresses the challenges of this expanded mission. 
Given the unprecedented size and complexity of the diplomatic 
mission in Iraq, currently projected to encompass some 17,000 
individuals at 15 different sites, the report raises questions 
about the availability of resources and whether the mission in 
Iraq can be implemented without the support of the U.S. 
military.
    In addition, the recent OIG report on Department of State 
planning for the transition to a civilian-led mission in Iraq 
notes that while effective planning mechanisms are in place, 
key decisions remain unresolved and some plans are not 
finalized. It also points to the problematic security 
environment, poor contractor performance, and Iraqi government 
reluctance at all levels to assume responsibility for 
reconstruction projects.
    AFSA does not currently have sufficient information about 
the scope of the U.S. mission in Iraq, but both as a 
professional association and the union representing the Foreign 
Service, it is our responsibility to seek answers to many of 
the fundamental questions that have been raised.
    According to GAO figures, the total number of Diplomatic 
Security agents deployed worldwide is about 720. Does DS have 
adequate resources and numbers to manage the approximately 
39,000 security contractors worldwide effectively, including 
those for Iraq? As U.S. forces draw down in Iraq, does the 
transition plan assume that the Iraqi government and its 
military forces are ready, able, or even willing to support and 
protect the U.S. civilian mission?
    Given that December 31, 2011 is the hard deadline for the 
withdrawal of all U.S. forces, is transition planning 
sufficiently advanced and adequately prepared? Are the Federal 
law enforcement training standards adhered to by the Diplomatic 
Security training center sufficient to meet the risks and 
dangers in Iraq? Is the course content of DS training for DS 
agents and other Foreign Service personnel being adapted to 
changing realities of how diplomacy is being conducted today in 
dangerous environments?
    Finally, is the Iraq transition plan right sized? Are its 
various elements correctly balanced for maximum effectiveness? 
Simply put, is this plan realistic and sustainable, and if so, 
are the preparations in place, including training?
    The American Foreign Service has a long and honorable 
tradition of serving wherever and whenever it is called upon to 
do so whatever the conditions. However, our political and 
Department of State leadership are responsible for providing 
security for those we send into harm's way to carry out our 
diplomatic missions. We hope that the Subcommittee will examine 
the Iraq plan closely and ask hard questions about the 
assumptions upon which it is based.
    I would like to thank you again for the opportunity to 
testify today. AFSA greatly values your long-standing support 
of initiatives to enhance diplomatic readiness of our civilian 
foreign affairs agencies. Thank you, sir.
    Senator Akaka. Thank you very much, Ms. Johnson, for your 
statement. Ms. Johnson, as the military withdraws from Iraq, 
and later Afghanistan, State's presence is growing. DS will 
provide an unprecedented level of security and protective 
services that the military is performing now such as downed 
aircraft recovery and explosive ordnance disposal. You raised 
concerns about whether the mission is compatible with the 
resources available.
    What resources and personnel are needed, and what more 
should State be doing to prepare to effectively address this 
security environment?
    Ms. Johnson. Thank you for that question, sir. Based on 
what AFSA has been told, the State Department is doing its best 
to plan and prepare in a context of uncertainties at home and 
in Iraq and Afghanistan and have undertaken an unprecedented 
planning effort. That said, because of these uncertainties, 
both at home and on the ground in Iraq and Afghanistan, AFSA is 
concerned in two broad areas. You have asked many questions 
about them and they have been addressed to a certain extent 
already.
    One of them is in the area of contracting and the need for 
more what I will call contracting training across the board in 
all of our foreign affairs agencies, not just in the oversight, 
but from negotiating the initial contracts to administering, 
managing, and overseeing them, and not just for DS, but also 
for other parts of the State Department that would be 
responsible for overseeing and managing contracts for life 
support systems and other things that we are now contracting 
out when we undertake missions of this size and scope and 
complexity.
    As has been noted, I think, followed in the press and in 
many reports, there have been a number of weaknesses identified 
in contracting overall and the performance. So we believe that 
a great deal more training has to take place in this area, but 
that calls for resources and that gets us back to the problem 
that we have focused in on.
    Another area that we think is important would be 
contingency planning in the event that the host governments 
cannot or will not deliver as expected. In our planning for 
Iraq, we are expecting the Iraqi government to provide a number 
of functions that the U.S. military provided in the past and 
that DS has said they will not be undertaking. What happens if 
the Iraqi government cannot or will not deliver those services? 
What is our Plan B?
    Senator Akaka. Let me followup with this question, Ms. 
Johnson. Do you believe all of the tasks being transferred from 
the U.S. military to DS's law enforcement and security core are 
appropriate? In other words, are there tasks that DS is being 
asked to undertake that should be performed by non-combat 
military troops?
    Ms. Johnson. Well, I was pleased to hear Assistant 
Secretary Boswell, Ambassador Boswell testify about some of the 
things that DS is doing to meet the requirements of this vastly 
expanded mission, and I certainly give them all credit for the 
efforts that they are making.
    However, AFSA would like to hear more open discussion about 
the pros and cons and the implications of the State 
Department's taking on security responsibilities for large 
scale civilian diplomatic and development missions in conflict 
zones where the capabilities of the host government remain 
unclear. We think this is an area that really needs to have 
more attention, so we certainly welcome your efforts in this 
area, and those of other parts of Congress and other 
organizations to look at this question.
    We have a related question, which is not clear to us yet 
and that relates to what specific tasks that the U.S. military 
was performing and that DS will not be performing. Do we now 
expect the Iraqi government, police, or armed forces to perform 
these tasks? Do we believe that they are ready, willing, and 
able to do so, and if so, on what evidence do we base that 
belief? That is a question that we have that we would like to 
see and hear answers to.
    Senator Akaka. Yes. Well----
    Ms. Johnson. So I guess the short answer is, I do not know, 
but we are a little bit skeptical and we would like to be 
reassured.
    Senator Akaka. Yes. Well, I hope so as well. Ms. Johnson, 
the State Department is operating in extremely complex and 
dangerous environments, situations where in the past State 
Department would have evacuated. What additional steps should 
DS take to make sure it is well-positioned to meet current and 
future training needs for evolving security threats?
    Ms. Johnson. Well, from AFSA's perspective, there are two 
elements here. One is the need that the GAO and I think your 
Committee has focused on for some time along with some other 
Committees, which is the need for more and better strategic 
planning by the State Department as a whole and by its various 
sub-elements, if you want to put it that way. And we certainly 
support that and would like to see it.
    For that reason, we certainly welcome Secretary Clinton's 
initiative of the QDDR, and we hope that now that we have been 
through the first iteration of that process that will continue 
to be refined and adjusted and provide a framework for better 
and more consistent strategic planning as a whole by the 
Department of State, and also bringing its various parts more 
into--synchronize them better.
    But to do all this, and a big part of all this, is that we 
need the resources to have the people required and we need more 
and better training, professional education and training that 
focuses on some over-the-horizon-issues, and that means a 
``training float'' sufficient personnel to have people in 
training without undermining the capacity of our embassies and 
missions overseas to meet their responsibilities.
    We talk a great deal about training and we have policies 
that put forward training objectives. But if we do not have the 
personnel required for a training float, which would allow us 
to send people to training without negatively impacting on 
those vacancy rates and other things that you were mentioning, 
and on real needs in the field, a great deal of that training 
does not happen.
    The other part of that, in addition to a float, is that our 
training and professional education needs to be tied more 
closely to assignment and particularly promotion. There have to 
be real incentives built in and real requirements built in for 
people to do training. So it comes back to a resource question 
and we have talked about the very tight fiscal, financial, and 
resource environment that we are in. So it is a challenge.
    Senator Akaka. Yes. Ms. Johnson, GAO's report on DS 
identified the challenges of balancing security with State's 
diplomatic mission. Do you believe progress has been made to 
achieve this balance?
    Ms. Johnson. I think the security mission balance issue is, 
and has been, a very important one for AFSA, and the issue goes 
far beyond DS itself. They are only one party involved in 
finding this balance. DS's mission is security. They are 
dedicated to it and I think they try to lay out what their 
needs and requirements are.
    Diplomatic leadership needs to address the diplomatic goals 
and what is or is not achievable under different levels of 
security constraints, and be realistic and open about this. So 
the QDDR has identified the security mission balance as an 
issue that needs more attention and discussion. We have not yet 
seen that process get underway, or if it has, we have not been 
privy to it.
    But it remains a continuing issue of concern for AFSA and 
we are not convinced that the right balance has been achieved 
yet.
    Senator Akaka. Ms. Johnson, as more DS officers serve in 
conflict zones, State must be prepared to address the risk of 
post-traumatic stress disorder and other challenges associated 
with hazardous and high-stress tours of duty. What steps should 
State take to support DS's officers who return from service at 
high-threat posts?
    Ms. Johnson. Well, that is a difficult question and I am 
glad that you asked it also of Assistant Secretary Boswell and 
I certainly defer to him on several of the things that DS is 
doing. I do know that State is well-aware of this problem, not 
just for DS agents, but for other Foreign Service personnel 
serving, particularly repeatedly, in high-threat posts.
    It is not easy to resolve. All of our people are exposed to 
danger. So far, with the exception of the mandatory out-brief, 
it depends on the individual. It is up to the individual to 
voluntarily seek out help, and that means some do, but many do 
not for various reasons. In particular, for DS agents, the 
perceived costs of doing so, in seeking out help, may be high, 
such as the suspension or temporary suspension of their 
credentials, their LEAP pay and other things.
    So there may be a number of built-in reasons why people are 
reluctant to seek out the help. But in the Department, as 
Ambassador Boswell mentioned, DS has a peer support group which 
supports fellow agents and we welcome that and commend it. And 
the Department has an active employee counseling service and a 
contract with Life Care to provide a range of support services 
for all State Department personnel.
    But we are venturing into new territory here and I think we 
are trying to explore, together with other elements of our 
Federal Government, military, National Guard, what is the 
answer and how can these problems be addressed.
    Senator Akaka. Ms. Johnson, the families of DS officers 
deployed to dangerous locations also face stress and hardships 
associated with having a loved one in harm's way. What services 
should State provide to support the families of DS officers 
deployed to high-threat posts?
    Ms. Johnson. From AFSA's perspective, all of our people and 
members, DS and non-DS, are exposed to dangers, and when it 
comes to Department support for families who are very much 
affected by this, we believe that all families should have 
access to the same support. As I mentioned earlier, the 
Department is well aware of this and is trying to grapple with 
it.
    I think the fundamental issue right now is to find a way of 
encouraging more people to voluntarily reach out. There may be 
some ways that the Department could get the resources to 
proactively reach out to families, as well as employees, at 
least to offer them counseling or other services that might 
help them cope with the hardships and the dangers and the 
stresses involved with these kinds of situations.
    So we would favor that, if the Department could do it, but 
we do not have the answer to that. We would like to see, and I 
believe we are working with the Department to try to come up 
with, effective ways of providing support for people who are 
under stress from service in high-threat posts.
    Senator Akaka. Yes. Well, Ms. Johnson, would you like to 
provide any final thoughts on what we have discussed?
    Ms. Johnson. Well, there was one element that I mentioned 
and I will just offer another thought on it. It has to do with 
more flexibility for DS to deal with unforeseen circumstances 
that might arise.
    I think this is just coming from our sense, as we have 
watched this now over the years for our military as well as our 
diplomatic personnel, that when called upon to operate in 
uncertain, dangerous, high-risk environments, agility, 
nimbleness, flexibility become critical, and that means having 
contingency funding or resources; Plan B and Plan C.
    We are not clear on what short-term options DS has if a 
contractor who is providing critical security is not 
performing. Then I suppose the Iraqi government is the Plan B. 
But what if that is not forthcoming? The military had a depth 
of resource for emergency that it could call upon, but in this 
new situation that might not be there. So what is the plan?
    Senator Akaka. Yes. Well, these are some of the challenges 
that we have to work on. Through this hearing we are trying to 
determine weaknesses that we can strengthen that will help our 
mission. As discussed earlier there have been so many changes 
and so many things that remain uncertain, so it is important 
that we conduct strategic planning, and have contingency plans 
to deal with potential changes.
    Ms. Johnson. Yes, sir.
    Senator Akaka. I appreciate you being here today Ms. 
Johnson. The reason why we wanted to hear from you is to hear 
from those who have had experience in this area and who may see 
it from a different view and give us a different slant of 
possible solutions that may help us in providing the security 
our country needs.
    So I thank you very much for being here and helping us with 
your valuable information and look forward to continuing to 
work with you.
    Ms. Johnson. Thank you, sir, and we appreciate the 
opportunity to, as you say, bring a different perspective 
because our perspective is from where we sit, each of us, and 
we are seeing a different angle on this than our colleagues in 
the State Department. We think both are valuable to you. So we 
certainly appreciate the work that you and your Subcommittee 
are doing and your staff.
    Senator Akaka. Well, thank you very much.
    I would like to thank you and our other witnesses here. It 
is clear to me that the Diplomatic Security Bureau has made 
great progress in meeting the demands of its expanding 
responsibilities. However, more work remains. Many of the 
concerns and recommendations discussed today are dependent on 
making sure that the resources provided to DS match the scope 
of the vital mission.
    The success of U.S. foreign policy and the lives of the 
brave men and women who promote it in some of the world's most 
dangerous places depends on a robust Diplomatic Security 
committed to working with State and stakeholders like AFSA to 
enhance diplomatic security readiness. We hope we can provide 
some solutions toward these uncertainties.
    The hearing record will be open for 2 weeks for additional 
statements or questions that Members may have. So this hearing 
is adjourned.
    [Whereupon, at 4:19 p.m., the hearing was adjourned.]


                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] T8013.001

[GRAPHIC] [TIFF OMITTED] T8013.002

[GRAPHIC] [TIFF OMITTED] T8013.003

[GRAPHIC] [TIFF OMITTED] T8013.004

[GRAPHIC] [TIFF OMITTED] T8013.005

[GRAPHIC] [TIFF OMITTED] T8013.006

[GRAPHIC] [TIFF OMITTED] T8013.007

[GRAPHIC] [TIFF OMITTED] T8013.008

[GRAPHIC] [TIFF OMITTED] T8013.009

[GRAPHIC] [TIFF OMITTED] T8013.010

[GRAPHIC] [TIFF OMITTED] T8013.011

[GRAPHIC] [TIFF OMITTED] T8013.012

[GRAPHIC] [TIFF OMITTED] T8013.013

[GRAPHIC] [TIFF OMITTED] T8013.014

[GRAPHIC] [TIFF OMITTED] T8013.015

[GRAPHIC] [TIFF OMITTED] T8013.016

[GRAPHIC] [TIFF OMITTED] T8013.017

[GRAPHIC] [TIFF OMITTED] T8013.018

[GRAPHIC] [TIFF OMITTED] T8013.019

[GRAPHIC] [TIFF OMITTED] T8013.020

[GRAPHIC] [TIFF OMITTED] T8013.021

[GRAPHIC] [TIFF OMITTED] T8013.022

[GRAPHIC] [TIFF OMITTED] T8013.023

[GRAPHIC] [TIFF OMITTED] T8013.024

[GRAPHIC] [TIFF OMITTED] T8013.025

[GRAPHIC] [TIFF OMITTED] T8013.044

[GRAPHIC] [TIFF OMITTED] T8013.027

[GRAPHIC] [TIFF OMITTED] T8013.028

[GRAPHIC] [TIFF OMITTED] T8013.029

[GRAPHIC] [TIFF OMITTED] T8013.030

[GRAPHIC] [TIFF OMITTED] T8013.031

[GRAPHIC] [TIFF OMITTED] T8013.032

[GRAPHIC] [TIFF OMITTED] T8013.033

[GRAPHIC] [TIFF OMITTED] T8013.034

[GRAPHIC] [TIFF OMITTED] T8013.035

[GRAPHIC] [TIFF OMITTED] T8013.036

[GRAPHIC] [TIFF OMITTED] T8013.037

[GRAPHIC] [TIFF OMITTED] T8013.038

[GRAPHIC] [TIFF OMITTED] T8013.039

[GRAPHIC] [TIFF OMITTED] T8013.040

[GRAPHIC] [TIFF OMITTED] T8013.041

[GRAPHIC] [TIFF OMITTED] T8013.042

[GRAPHIC] [TIFF OMITTED] T8013.043

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
